      Department of Homeland Security




 The State of Ohio’s Management of State Homeland
Security Program and Urban Areas Security Initiative
          Grants Awarded During Fiscal Years
                    2007 through 2009




OIG-12-17                                    December 2011

                                                             Office ofInspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 20528




                                                             Homeland
                                                             Security
                        DEC 1'3 2011

                                          Preface

The Department of Homeland Security (DHS) Office ofInspector General (OIG) was
established by the Homeland Security Act of2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the Department.

This report addresses the State of Ohio's (State) management of State Homeland Security
Program and Urban Areas Security Initiative grants. We contracted with the independent
public accounting firm Foxx & Company to perform the audit. The contract required that
Foxx & Company perform its audit according to generally accepted government auditing
standards. Foxx & Company's report identifies five reportable conditions where State
management of the grant funds could be improved, resulting in 12 recommendations
addressed to the Assistant Administrator, Grant Programs Directorate. Foxx & Company
is responsible for the attached auditor's report dated November 30, 2011, and the
conclusions expressed in the report.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.

                                       ~i~
                                       Anne L. Richards
                                       Assistant Inspector General for Audits
November 30, 2011

Ms. Anne L. Richards
Assistant Inspector General for Audits
Office of Inspector General
U.S. Department of Homeland Security
245 Murray Drive, S.W. Building 410
Washington, D.C. 20528

Dear Ms. Richards:

Foxx & Company performed an audit of the State of Ohio’s management of the
Department of Homeland Security’s State Homeland Security Program and Urban Areas
Security Initiative grants for Fiscal Years 2007 through 2009. The audit was performed
in accordance with our Task Order No. 09 under TPD-FIG-BPA-07-0007, dated
September 27, 2010. This report presents the results of the audit and includes
recommendations to help improve the State’s management of the audited State Homeland
Security Program and Urban Areas Security Initiative grants.

Our audit was conducted in accordance with applicable Government Auditing Standards,
2007 revision. The audit was a performance audit as defined by Chapter 1 of the
Standards and included a review and report on program activities with a compliance
element. Although the audit report comments on costs claimed by the State, we did not
perform a financial audit, the purpose of which would be to render an opinion on the
State of Ohio’s financial statements or the funds claimed in the Financial Status Reports
submitted to the Department of Homeland Security.

We appreciate the opportunity to have conducted this audit. Should you have any
questions, or if we can be of any further assistance, please call me at (513) 639-8843.

Sincerely,



Foxx & Company
Martin W. O’Neill
Partner
Table of Contents/Abbreviations 

Executive Summary ........................................................................................................... 1 


Background ........................................................................................................................ 2 


Results of Audit ................................................................................................................. 2 


     Untimely Release of Grant Funds to Subgrantees ....................................................... 3 

     Recommendations ........................................................................................................ 7 

     Management Comments and Auditors’ Analysis ........................................................ 7 


     Untimely Payments to Subgrantees for Grant Expenditures ........................................ 8

     Recommendations ...................................................................................................... 10 

     Management Comments and Auditors’ Analysis ...................................................... 10 


     Noncompliance with Procurement Regulations.......................................................... 11 

     Recommendations ...................................................................................................... 16 

     Management Comments and Auditors’ Analysis ........................................................16 


     Noncompliance with Property Management Requirements ....................................... 18 

     Recommendations ...................................................................................................... 20 

     Management Comments and Auditors’ Analysis ...................................................... 21 


     Inadequate Monitoring of Subgrantees ...................................................................... 21 

     Recommendation ....................................................................................................... 24 

     Management Comments and Auditors’ Analysis ...................................................... 24 


Appendices

     Appendix A:           Purpose, Scope, and Methodology ..................................................... 25 

     Appendix B:           Management Comments to the Draft Report ..................................... 30 

     Appendix C:           Homeland Security Grant Program Background ............................... 40 

     Appendix D:           Ohio Emergency Management Agency Organization Chart ............. 41 

     Appendix E:           Report Distribution ............................................................................ 42 


Abbreviations

     DHS                   Department of Homeland Security

     FEMA                  Federal Emergency Management Agency

     FY                    fiscal year

     OIG                   Office of Inspector General

OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                      Public Law 110-53, Implementing Recommendations of the 9/11
                      Commission Act of 2007, requires the Department of Homeland
                      Security, Office of Inspector General, to audit individual states’
                      management of State Homeland Security Program and Urban
                      Areas Security Initiative grants. This report responds to the
                      reporting requirement for the State of Ohio.

                      The objectives of the audit were to determine if the State of Ohio
                      distributed and spent State Homeland Security Program and Urban
                      Areas Security Initiative grant funds (1) effectively and
                      strategically and (2) in compliance with applicable federal laws
                      and regulations. We were to also address the extent to which grant
                      funds enhanced the State of Ohio’s ability to prevent, prepare for,
                      protect against, and respond to natural disasters, acts of terrorism,
                      and other man-made disasters. The audit included a review of
                      approximately $112.8 million in State Homeland Security Program
                      and Urban Areas Security Initiative grants awarded to Ohio during
                      fiscal years 2007 through 2009.

                      Overall, the State of Ohio did an efficient and effective job
                      administering the program requirements, distributing grant funds,
                      and ensuring that all available funds were used. The State of Ohio
                      also used an appropriate process for developing a strategy for
                      improving preparedness that contained measurable goals and
                      objectives.

                      However, improvements were needed in the State of Ohio’s
                      management of grants to improve the timeliness of releasing funds
                      to subgrantees and reimbursing subgrantees for grant funded
                      expenditures. Also, the State of Ohio needed to improve
                      compliance with federal procurement and property management
                      regulations, and enhance subgrantee monitoring. The Federal
                      Emergency Management Agency concurred with 11 of 12
                      recommendations and concurred with the intent of the remaining
                      recommendation that, when implemented, should help strengthen
                      program management, performance, and oversight. Written
                      comments to the draft report are incorporated as appropriate and
                      included in their entirety in appendix B.

             The State of Ohio’s Management of State Homeland Security Program and
       Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                              Page 1

Background
                     The Homeland Security Grant Program provides federal funding to
                     help state and local agencies enhance capabilities to prevent,
                     protect against, respond to, and recover from terrorist attacks,
                     major disasters, and other emergencies.

                     The State of Ohio (State) received $131.6 million in Homeland
                     Security Grant Program funds during fiscal years (FY) 2007, 2008,
                     and 2009. The funding included $112.8 million in State Homeland
                     Security Program and Urban Areas Security Initiative grants.
                     Appendix A provides details on the purpose, scope, and
                     methodology for this audit, and appendix C provides additional
                     background on the Homeland Security Grant Program.

                     The Governor of the State of Ohio designated the Ohio Emergency
                     Management Agency as the State Administrative Agency, the
                     entity responsible for administering the Homeland Security Grant
                     Program. The State Administrative Agency is responsible for
                     managing the grant programs in accordance with established
                     federal guidelines and allocating funds to local, regional, and other
                     Ohio government entities. The Ohio Emergency Management
                     Agency organization is depicted in appendix D.

                     The Ohio Emergency Management Agency awarded Homeland
                     Security Grant Program funds to four Urban Areas Security
                     Initiative recipients (Cincinnati, Cleveland, Columbus, and
                     Toledo), eight law enforcement regions, all 88 Ohio counties, and
                     several State agencies.

Results of Audit
     State Grants Management Practices Were Generally Effective,
     But Required Some Improvements
            Overall, the State did an efficient and effective job administering the
            program requirements, distributing grant funds, and ensuring that all
            available funds were used. The State used an appropriate process for
            developing a strategy for improving preparedness that contained
            measurable goals and objectives that were consistent with Federal
            Emergency Management Agency (FEMA) guidance. The State’s goals
            were developed by panels of experts through assessments of the potential
            threats and Ohio first responders’ existing capabilities. Additionally, the


            The State of Ohio’s Management of State Homeland Security Program and
      Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                             Page 2

       State distributed funds based on population and the critical infrastructure
       identified by subgrantees.

       However, improvements were needed to enhance Ohio’s management of
       the grants including:

              Improving the timely release of grant funds to subgrantees, and the
              timely payment of subgrantees for grant-funded expenditures,
              Ensuring compliance with procurement regulations and property
              management requirements, and
              Better monitoring of Urban Areas Security Initiative and State
              Homeland Security Program grants.

       We have made 12 recommendations that will enhance the effectiveness of
       the State’s grants management and overall use of the grant funds to
       improve preparedness and response capabilities.

Untimely Release of Grant Funds to Subgrantees
       The State Administrative Agency did not release funds to subgrantees in a
       timely manner. This occurred primarily because the State Administrative
       Agency system used to award subgrantee funds was cumbersome and staff
       shortages were encountered. Consequently, subgrantees were delayed in
       purchasing equipment, and organizing and conducting training and
       exercises.

       FEMA’s 2007, 2008, and 2009 Homeland Security Grant Program
       guidance required the State Administrative Agency to make available no
       less than 80% of grant funds to local units of government within 60 days
       (2007) or 45 days (2008, 2009) of the State’s receipt of grant funds.
       FEMA Information Bulletin No. 257, dated July 17, 2007, stated that it is
       important to ensure that funds are obligated and expended in a timely
       manner, within established periods for performance.

       Ohio utilized a multi-step process for approving and notifying subgrantees
       of FYs 2007 through 2009 Urban Areas Security Initiative and State
       Homeland Security Program grant awards, including:

                Calculations of how much to award to each subgrantee,

                Preparation of a State Purchase Order for the amount of the award

                to each subgrantee,

                Preparation and dissemination of detailed grant guidance,

                Preparation by subgrantees of detailed grant applications that 

                included detailed budget estimates for equipment, planning, 

                administrative, exercise, and training expenses, 


       The State of Ohio’s Management of State Homeland Security Program and
 Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009

                                       Page 3
               Review and approval of the subgrantee application and proposed
               budgets, and
               Notification of grant award enabling subgrantees to spend grant
               funds.

      Until these steps were completed, subgrantees were not allowed to spend
      grant funds.

      As table 1 shows, the 24 Ohio subgrantees and four State Agencies visited
      waited an average of 8 months (between 3 and 22 months) after the State
      obligated the grant funds to receive their 2007 grant award, with seven
      subgrantees waiting a year or more for the grant award. For 2008, delays
      increased to an average of 10 months (between 6 and 30 months) with
      three subgrantees waiting more than a year and two others waiting more
      than two years. For 2009, delays increased to an average of 11 months
      with three subgrantees waiting more than a year. Four subgrantees did not
      receive 2009 grant awards by May 15, 2011 – 19 months after Ohio
      reported to FEMA that these funds were obligated.




      The State of Ohio’s Management of State Homeland Security Program and
Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                       Page 4

            Table 1: Ohio Release of Homeland Security Grant Program
            funds to Subgrantees
                         Months After Grant Funds Were Obligated
               Subgrantee         FY 2007           FY 2008        FY 2009
                    1                  3               7               7
                    2                  3               8             15
                    3            No award              9               9
                    4                  4              10             11
                    5                  3              13             10
                    6                  9               7               9
                    7                  3               6               8
                    8                  3               6             10
                    9                  3               6               9
                   10                  3               6               4
                   11                  3               6               7
                   12                  4               6               7
                   13                  4               6               7
                   14                13               25             13
                   15                12               13             19 *
                   16                13                6             19 *
                   17                  6               9             19 *
                   18                12                9               7
                   19                  6               6               7
                   20                  5               9               6
                   21                16               30               7
                   22                  5               8             18
                   23                19                8               9
                   24                22               14             19 *
            State Agencies
                   25                  7           No award        No award
                   26                  7           No award        No award
                   27                  7              14             18
                   28                    OEMA – No grant agreements
                 Average               8              10             11
            *2009 grant funds were not approved as of May 15, 2011

      For the FY 2008 grants, 10 of the subgrantees visited did not begin to
      spend grant funds until one to 21 months after the delays shown in the
      table above. During the first year of the FY 2008 performance period,
      Ohio introduced an electronic grants management system and required all
      subgrantees to submit their grant budgets for re-approval. Ohio
      Emergency Management Agency officials said that since the grant awards
      were approved before the electronic system was introduced, subgrantees

      The State of Ohio’s Management of State Homeland Security Program and
Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                       Page 5

      could have spent 2008 grant funds and received reimbursements during
      the transition to the electronic system. However, 10 of the 28 subgrantees
      visited did not understand this and waited until their budgets were
      approved in the electronic system before spending grant funds.

      According to Ohio Emergency Management Agency staff, part of the
      reason for these delays was that Ohio Emergency Management Agency
      officials must receive and approve detailed descriptions of the equipment
      or services subgrantees plan to acquire. Also, the character and content of
      proposed exercises, training, and anticipated administrative expenses must
      be approved to assure that subgrantees properly expend grant funds.

      According to the State staff, with 88 counties, four Urban Areas Security
      Initiative, eight regional law enforcement subgrantees, and special grants
      to State agencies and special projects, the administrative workload was
      significant. In addition they advised that, during 2009 and 2010, Ohio
      Emergency Management Agency experienced staff turnover and faced
      hiring restrictions that limited the number of grant specialists to
      accomplish the reviews and perform other grant coordination and
      administration matters. Further, they advised that the new electronic
      grants management system was installed, which encountered numerous
      start-up problems when it was put into place in early 2009. Subgrantees
      did not always understand the new system’s data entry rules, resulting in
      rejected entries that required additional work by subgrantees.

      While all of these factors may have contributed to the delays, limited staff
      at the State level was most commonly mentioned by State officials and
      subgrantees visited as the cause for delays. In this regard, we observed
      that Ohio Emergency Management Agency was not using all of the
      permitted administrative allowance to hire staff. We were informed that
      the Department of Public Safety, Ohio Emergency Management Agency’s
      parent organization, would not authorize additional staff or contract
      employees even if the new staff salaries were paid for by the federal grant.

      As a result of these delays, subgrantees had to wait months for the State to
      award the grants before subgrantees could order needed equipment,
      acquire training and exercises, and pay administrative expenses.
      According to subgrantees, these delays resulted in price changes by
      vendors as the time from initial quotation to actual purchase expanded
      and, in turn, added work by the subgrantees to revise approved budgets.
      Eighteen of the 28 grant recipients visited requested an extension to the
      grant performance period established by the Ohio Emergency
      Management Agency because more time was needed to properly complete
      planned procurements and obtain reimbursements.


      The State of Ohio’s Management of State Homeland Security Program and
Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                       Page 6

      Recommendations
               We recommend that the Assistant Administrator, Grant Programs
               Directorate, require the Ohio Emergency Management Agency to:

               Recommendation #1: Review the subgrantee application and
               approval process to identify ways to make it more efficient and
               less time consuming.

               Recommendation #2: Provide detailed guidance to the
               subgrantees concerning the process upon implementation.

      Management Comments and Auditors’ Analysis
               FEMA concurred with recommendations 1 and 2 and stated that
               the Agency expects the Ohio Emergency Management Agency to
               confirm within 90 days that an assessment of current policies and
               procedures on timely subgrantees awards has been accomplished.
               Also, the Ohio Emergency Management Agency is to develop and
               provide guidance and additional training to subgrantees concerning
               the revised procedures. FEMA requested that recommendations
               1 and 2 be resolved and open pending implementation of the stated
               actions.

               The Ohio Emergency Management Agency also concurred with
               recommendations 1 and 2. Ohio Emergency Management Agency
               officials stated that in years subsequent to the period of this audit
               the State grant staff has initiated more detailed instructions on
               necessary steps to streamline the applications and funds release
               process. The Ohio Emergency Management Agency will continue
               to review and update this guidance and work with subgrantees to
               assure funds are released within a reasonable time-frame.

               If properly implemented, the corrective actions proposed by
               FEMA and the State will resolve the condition identified during
               the audit. The recommendations are considered resolved and will
               remain open until such time that corrective actions have been
               implemented.




      The State of Ohio’s Management of State Homeland Security Program and
Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                       Page 7

Untimely Payment to Subgrantees for Grant Expenditures
       The Ohio Emergency Management Agency did not always make
       payments to subgrantees for grant expenditures in a timely manner. Staff
       shortages and a cumbersome process were among the reasons cited for the
       delays. Our review of a sample of 55 subgrantee payment requests
       showed payments were made anywhere from 13 to 89 days after the
       requests were submitted to the State. As a result, local funds were often
       not reimbursed in a timely manner and vendors were not always paid
       timely for goods and services, which tied up working capital that could
       have been used for other purposes or invested until needed. The
       sometimes cumbersome nature of the payment process also contributed to
       subgrantee concerns about grant-related administrative burdens.

       The regulations governing grant management do not specify timeframes in
       which the state must pay subgrantees once the subgrantee submits a
       request for reimbursement. The regulations also do not stipulate
       timeframes in which subgrantees must pay vendors. The general business
       standard for payment is net 30 days. Although variations from this
       standard certainly exist, it provides a reasonable benchmark for assessing
       timeliness.

       For 17 of the 24 subgrantees we visited, officials told us of payment
       delays that could range from several weeks to several months from when a
       subgrantee first submitted a request for payment until the electronic check
       arrived from the State. These subgrantees told us that the payment process
       during the three grant years under review has grown increasingly
       inconsistent and time-consuming. The problems cited included multiple
       revisions of budgets and payment requests, requests for additional detail
       and documentation that some subgrantees thought excessive, and
       sometimes considerable back-and-forth with grant administrators to
       resolve issues. In a few cases, purchases were questioned or rejected
       despite prior approvals.

       We selected a sample of 55 payment requests from 14 of the subgrantees
       visited to assess the time it took for reimbursement from the State. Our
       analysis, depicted in table 2, showed that payments ranged from 13 days to
       89 days, with 22 transactions taking more than 30 days to complete. Of
       those transactions, eight exceeded 50 days, taking an average of 70 days to
       complete.




       The State of Ohio’s Management of State Homeland Security Program and
 Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                        Page 8

               Table 2: Timeliness of Payments to Subgrantees
                                         Number of              Average
                      Range
                                        Transactions             Days
                Within 30 days                 33                  22

                31-50 days                     14                  42

                51-89 days                     8                   70

      State and local officials pointed to a number of reasons for the payment
      delays, including:

               Turnover and subsequent shortages of Ohio Emergency
               Management Agency grants staff,
               Lack of standardized procedures for reviewing and approving
               reimbursement requests,
               Lack of training among subgrantee and Ohio Emergency
               Management Agency staff regarding understanding of and
               familiarity with items and services being purchased, and
               Ohio Emergency Management Agency’s changeover to a new
               grants management system.

      According to Ohio Emergency Management Agency officials, the agency
      encountered staff shortages during 2009 and 2010. During this time, when
      the FYs 2007 and 2008 grant funds were being spent, Ohio Emergency
      Management Agency relied on two grant administrators to manage the
      grants for 88 Counties, four Urban Areas Security Initiative, eight law
      enforcement regions, and special purpose grants encompassing about
      $85,000,000. In addition, Ohio Emergency Management Agency officials
      noted that the transition process to the new grants management system did
      not always go smoothly and contributed to extending the reimbursement
      process.

      The effect of delays varied depending on the financial arrangements the
      subgrantee had established with the local county. Of 24 subgrantees
      visited, 15 utilized local funds to pay vendors and then sought
      reimbursement from the State to replenish funds. In these cases, the
      subgrantees had the capability to pay vendors promptly. However, local
      taxpayers effectively bore the brunt of the delays as the subgrantee’s
      working capital was diverted to cover grant expenses instead of being
      invested until needed or used for other purposes. Nine other subgrantees
      relied on payment from the state to pay vendors. In these cases, vendors
      bore the burden of the delays, with their working capital and cash flows
      directly affected. At one location, officials cited a consulting contract
      reimbursement that took more than 6 months and caused considerable

      The State of Ohio’s Management of State Homeland Security Program and
Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009

                                      Page 9
      difficulty for the contractor. At another location, local officials told us
      that certain vendors refused to do further business because of the late
      payments.

      These subgrantees told us that another effect of the lengthy payment
      process was the increased workload associated with payments. Combined
      with other grant management requirements, officials said managing the
      grants required increased amounts of time away from day-to-day
      emergency management duties.

      Recommendations
               We recommend that the Assistant Administrator, Grant Programs
               Directorate, require the Ohio Emergency Management Agency to:

               Recommendation #3: Establish a clear time standard for
               processing payment requests from subgrantees consistent with
               reasonable business practice.

               Recommendation #4: Conduct a comprehensive analysis of the
               subgrantee payment procedures, documentation requirements, and
               automated systems to identify ways to streamline the process while
               still maintaining accountability for compliance with grant
               requirements.

               Recommendation #5: Establish and provide training on the
               revised process for State grant specialists and subgrantee staff.

               Recommendation #6: Consider instituting an Electronic Grant
               Management System users group to identify and resolve future
               process problems.

      Management Comments and Auditors’ Analysis
               FEMA concurred with recommendations 3, 4, 5, and 6. FEMA
               agreed to request the Ohio Emergency Management Agency to,
               within 90 days of receipt of this report, establish a time standard
               for processing payment requests consistent with reasonable
               business practice. FEMA will also request the Ohio Emergency
               Management Agency to analyze payment procedures and
               documentation requirements to identify ways to streamline the
               payment process consistent with grant requirements. Furthermore,
               FEMA agreed to request the Ohio Emergency Management
               Agency to develop ways to provide State staff and subgrantees
               training on streamlined payment procedures, and to consider an

      The State of Ohio’s Management of State Homeland Security Program and
Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                      Page 10

                Electronic Grant Management System user group to assist in
                problem resolution. FEMA requested that recommendations
                3 through 6 be resolved and open pending implementation of the
                stated actions.

                The Ohio Emergency Management Agency also concurred with
                recommendations 3 through 6. Ohio Emergency Management
                Agency officials stated that reasonable internal timeframes for
                making payments to subgrantees consistent with normal business
                practice have been established. The Ohio Emergency Management
                Agency agreed to review the current reimbursement process and
                make improvements consistent with necessary internal controls for
                assuring accurate and proper payments. The Ohio Emergency
                Management Agency’s comments pointed out that not all elements
                of the payment process are within grant staff control, such as
                accuracy and completeness of documents submitted by subgrantees
                and the State’s accounting processes. Nevertheless, the Ohio
                Emergency Management Agency will review its process and look
                for efficiencies. Ohio Emergency Management Agency officials
                stated that they have increased awareness and training on grants
                management and administration in order to enhance the staff’s
                expanding knowledge base.

                With respect to recommendation 6, Ohio Emergency Management
                Agency officials stated that a new Electronic Grant Management
                System has been identified. Ohio Emergency Management
                Agency officials said that it would be reaching out to stakeholders
                at the subgrantee level to review, critique, and make
                recommendations on the new system.

                If properly implemented, the corrective actions proposed by
                FEMA and the State will resolve the condition identified during
                the audit. The recommendations are considered resolved and will
                remain open until such time that corrective actions have been
                implemented.

Noncompliance with Procurement Regulations
       The Ohio Emergency Management Agency did not ensure that federal
       regulations were followed for procurements of equipment and services
       with Homeland Security Program Grant funds. The Ohio subgrantees
       visited used grant funds to buy brand-specific items non-competitively
       from preferred manufacturers and franchised vendors. As a result, there
       was no assurance that the best price had been obtained for the
       procurements.

       The State of Ohio’s Management of State Homeland Security Program and
 Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                       Page 11

      The Code of Federal Regulations Title 44 §13.36, Procurement, provides
      uniform administrative requirements for grants and cooperative
      agreements awarded to state and local governments. These regulations
      direct the state and local governments to use their own procurement
      procedures, which reflect applicable state and local laws and regulations,
      provided that the procedures conform to applicable federal procurement
      regulations. Federal procurement regulations direct grantees and
      subgrantees to:

               Acquire equipment and services under full and open competition.
               Ensure that all prequalified lists of persons, firms, or products
               which are used in acquiring goods and services are current and
               include enough qualified sources to ensure maximum open and
               free competition.
               Obtain an adequate number of quotations from qualified sources
               for smaller purchases that do not cost more than $100,000.
               Maintain records sufficient to detail the significant history of the
               procurements including rationale for the procurement, method,
               selection of contractor type and contractor, and basis for the
               contract price.
               Conduct cost analyses to assure prices obtained through non-
               competitive procurements are fair and reasonable.
               Use non-competitive procurement, procure from a single source or
               when competition is determined inadequate, only when award of a
               contract is infeasible under small purchase procedures, sealed bids,
               or competitive proposals and:

                   The item is only available from a single source, or
                   Public emergency will not permit a competitive purchase, or
                   The awarding agency authorizes noncompetitive proposals, or
                   After solicitation of a number of sources, competition is
                   determined inadequate.

      For non-competitive procurements that exceed the $100,000 simplified
      acquisition threshold, federal regulations require grantees and subgrantees
      to perform a cost analysis to determine the reasonableness of the proposed
      contract price. According to Code of Federal Regulations Title 44
      §13.36(f), a cost analysis will be necessary when adequate price
      competition is lacking, and for sole source procurements. A cost analysis
      would involve a review and analysis of various cost elements included in
      the contractor’s proposed price, including specific elements of costs
      (e.g., overhead and profit). The analysis results could then be used to help
      negotiate a reasonable contract price.



      The State of Ohio’s Management of State Homeland Security Program and
Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009

                                      Page 12
      In addition, the Department of Homeland Security (DHS), Financial
      Management Guide, dated January 2006, states on Page 41 “All sole
      source procurements in excess of $100,000 must receive prior written
      approval of the awarding agency.…Justification must be provided for non­
      competitive procurement and should include a description of the program
      and what is being contracted for, an explanation of why it is necessary to
      contract noncompetitively, time constraints and any other pertinent
      information….Sub recipients must obtain approval from the primary
      recipient.” In Ohio’s case it would be the Ohio Emergency Management
      Agency. For non-competitive procurements made by the State, approval
      from FEMA is necessary. FEMA officials said, in commenting on the
      draft report, that the Financial Management Guide was only applicable for
      grants through FY 2007.

      We reviewed all of the large ($100,000 or greater) and some smaller
      procurements at each of the subgrantees visited. These purchases were for
      communications equipment, vehicles, chemical detectors, and a variety of
      other items used by first responders. Of the 85 procurements reviewed,
      only 9 were purchased under full and open competition. The remaining 76
      were purchased non-competitively from a single source, even though other
      sources were available, there was no associated public emergency, and the
      State had not approved non-competitive procurements. Thirty-six of the
      76 non-competitive procurements fell below the federal threshold
      ($100,000) for required cost analyses to assure the price obtained non-
      competitively was fair and reasonable. Subgrantees did not prepare cost
      or price analyses for any of the procurements.

      Of the 76 non-competitive procurements in our sample, subgrantees
      solicited multiple bids for two of the procurements, but only one bid was
      received and it was accepted. This is specifically identified in federal
      regulation as a situation lacking adequate price competition.

      For example, the Fire Chiefs Association for one county proposed buying
      air monitoring equipment for their Hazmat vehicle and a preferred brand
      of equipment and manufacturer was specifically identified that would also
      be compatible with existing equipment, maintenance, and training
      procedures. Concerned about meeting competition requirements, the
      subgrantee approached its County Prosecutor for a legal opinion and was
      told to compete the purchase. Multiple quotes were solicited but only one
      bid was received. It was accepted and the item was purchased from the
      preferred manufacturer. The subgrantee staff told us this process was
      consistent with the County and Ohio’s bid procedures. However, Code of
      Federal Regulations Part 44 §13.36 requires a cost analysis to be
      performed when there is lack of competition. The subgrantee did not


      The State of Ohio’s Management of State Homeland Security Program and
Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                      Page 13

      perform a cost analysis. Also, we found no evidence of approval of the
      contract by the Ohio Emergency Management Agency.

      Five of the 76 non-competitive procurements in our sample were
      specifically identified as ‘sole source’ by the purchasing agent and local
      procedures were followed to obtain approval. We observed other sources
      for these items, no public emergency was documented, and no approval
      was obtained from the State. For example, Ohio Emergency Management
      Agency purchased new software for $347,963 to help manage its
      emergency operations center during training and emergencies. The
      software was purchased from a supplier preferred by Ohio Emergency
      Management Agency staff and specifically identified as ‘sole source’ in
      the procurement documentation. However, other vendors could have
      provided this software. The Ohio Emergency Management Agency
      received specific approval from the State Controlling Board for this sole
      source purchase as required under State procedures. The Ohio Emergency
      Management Agency did not prepare a cost analysis to demonstrate that
      the purchase price was fair and reasonable as required by Code of Federal
      Regulations Part 44 §13.36 or obtain approval from FEMA.

      Fifty-five purchases we reviewed were procured from suppliers listed in
      Ohio State Term Schedules. The Ohio State Term Schedules are lists,
      prepared and maintained by the Ohio Department of Administrative
      Services, of approved manufacturers with products offered at ‘best prices’
      and specific terms the State requires. Competition is not part of the
      process for suppliers to be placed on the Term Schedule.

      Under the Ohio Revised Code, State Agencies and cooperating political
      subdivisions may use State Term Schedules to acquire needed items
      without further competition. A subgrantee may look up a particular item it
      wants to purchase on the State Term website, obtain the needed
      information, and buy the item from that manufacturer. No further efforts
      are necessary to meet competition requirements such as open solicitation
      or evaluation of quotations. Ohio Department of Administrative Service
      officials told us that purchases by State Agencies from State Term
      Schedules costing more than $10,000 are reviewed and the agency
      reserves the right to direct the State Agency to compete the purchase.

      Purchasing directly from State Term Schedules may meet Ohio
      competition requirements; however, these purchases do not meet federal
      procurement standards for fair and open competition, particularly for
      purchases in excess of $100,000. Federal regulations require that all
      prequalified lists of persons, firms, or products which are used in
      acquiring good and services are current and include enough qualified
      sources to ensure maximum open and free competition. The items on the

      The State of Ohio’s Management of State Homeland Security Program and
Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                      Page 14

      State Term website are not necessarily the best value but rather a list of
      suppliers that have qualified their products for the State Term listing,
      similar to the U.S. General Services Administration contracts with various
      vendors. Although vendors are supposed to offer the best price for the list,
      it may not necessarily be the lowest or best value price available for the
      same item that might be offered by other vendors.

      Most of the large purchases we observed were for specific items from a
      single manufacturer or franchised vendor and should have been classified
      as non-competitive purchases. We observed the use of State Term
      Schedule and Contract purchases by nearly every subgrantee visited.
      Although the State Administrative Agency reviewed and approved these
      non-competitive purchases, both when proposed by the subgrantees and
      when they sought reimbursements, the Agency did not provide appropriate
      guidance to subgrantees and their purchasing organizations regarding
      federal requirements.

      Problems with non-competitive procurement in Ohio were also reported
      by the Office of Inspector General (OIG) in an audit report issued in 2008.
      In that report the OIG reported “the State Administrative Agency did not
      ensure that federal procurement regulations were followed for non­
      competitive procurements. Agency and subgrantee officials did not
      perform required cost analyses for several non-competitive procurements
      that exceeded $100,000. Also the subgrantees did not notify the Agency
      prior to awarding non-competitive contracts. As a result, the Agency and
      its subgrantees might have paid more for equipment and services than was
      necessary and reasonable.” The report recommended that the Ohio
      Emergency Management Agency highlight, emphasize and transmit to
      applicable state agencies and subgrantees the federal requirement to:

           a) Prepare a cost analysis for non-competitive procurements that are
              expected to exceed $100,000, and
           b) Notify the State Administrative Agency of any such procurement
              and give the State the opportunity to conduct pre-award reviews.

      The report also recommended that the Ohio Emergency Management
      Agency establish and implement procedures to ensure that grant recipients
      follow federal requirements for non-competitive procurements exceeding
      $100,000.

      The Ohio Emergency Management Agency agreed in the future to perform
      cost analyses when high value, sole source contracts, or contracts with
      inadequate competition are awarded. The Ohio Emergency Management
      Agency also said that the grant guidance will highlight and emphasize
      these requirements and require that the subgrantees notify the State

      The State of Ohio’s Management of State Homeland Security Program and
Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                      Page 15

      Administrative Agency prior to undertaking high value, sole source
      procurements. The Ohio Emergency Management Agency agreed to
      address these problems. However, because the same problems were
      identified during the current audit, it is clear that the Agency’s efforts have
      not been successful.

      Recommendations
               We recommend that the Assistant Administrator, Grant Programs
               Directorate, require the Ohio Emergency Management Agency to:

               Recommendation # 7: Develop and provide to all Ohio
               Emergency Agency grant staff and subgrantee grant managers,
               training on State and federal regulations pertaining to competitive
               procurement.

               Recommendation #8: Prepare, publish, and disseminate guidance
               detailing procurement regulations and procedures for acquiring
               equipment and services using FEMA grant funds to all Ohio
               municipal and county purchasing departments that assist
               subgrantees in acquiring equipment or services with Homeland
               Security grant funds.

               Recommendation #9: Complete a review of all grant funded
               purchases using FYs 2007, 2008, and 2009 State Homeland
               Security Program and Urban Areas Security Initiative grant funds
               of $100,000 or more to: (a) Identify those purchases made as sole
               source procurements and verify that sole source procurement was
               justified, (b) Document that the price obtained was fair and
               reasonable, and (c) Limit the allowable costs for all such
               procurements to amounts determined to be fair and reasonable.

      Management Comments and Auditors’ Analysis
               FEMA concurred with recommendations 7 and 8 and concurred
               with the intent of recommendation 9. FEMA noted that a 2008
               change in grant regulations from those of the Justice Department
               (Code of Federal Regulations Title 28) to those of the Department
               of Homeland Security (Code of Federal Regulations Title 44)
               limited the Ohio Emergency Management Agency’s obligation to
               review and approve sole source procurements exceeding $100,000
               to only those made prior to 2008. Accordingly, FEMA is
               requesting the Ohio Emergency Management Agency, within 90
               days of receipt of this report, to only review, document, and assess
               the sole source procurements made in 2007. FEMA officials said

      The State of Ohio’s Management of State Homeland Security Program and
Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                      Page 16

               that they will request the Ohio Emergency Management Agency to
               indicate that procedures are outlined in the Administrative Plan to
               ensure State staff and subgrantees follow federal requirements.
               FEMA will also request that Ohio Emergency Management
               Agency issue guidance to all subgrantees detailing procurement
               regulations and procedures.

               FEMA recommended that recommendations 7 through 9 be
               resolved and open pending implementation of the stated corrective
               actions.

               In written comments the Ohio Emergency Management Agency
               also concurred with recommendations 7 and 8, and agreed to a
               more limited review of future procurements than is included in
               recommendation 9.

               The Ohio Emergency Management Agency requested several
               changes to expand and clarify the report text including: additional
               language from the Code of Federal Regulations Title 44 §13.36;
               clarification on the applicability of the DHS Financial
               Management Guide only to FY 2007 grants; and revision or
               removal of the text regarding Ohio Emergency Management
               Agency’s non-competitive purchase of emergency operations
               software. Ohio Emergency Management Agency advised that the
               software purchase was appropriate since the guidance of Code of
               Federal Regulations Title 44 §13.36 was followed. We revised and
               expanded the report text as requested but we did not change the
               discussion surrounding the Ohio Emergency Management
               Agency’s purchase of emergency operations software. The Ohio
               Emergency Management Agency has overlooked key provisions of
               Code of Federal Regulations Title 44 §13.36 that require state
               procurement procedures to be followed as long as the state
               procedures conform to applicable federal law and standards of the
               regulation. Ohio procurement procedures did not conform to
               federal standards.

               The Ohio Emergency Management Agency also requested that the
               requirement in recommendation 9 to disallow sole source
               procurements that are determined not to be compliant with federal
               regulations only apply to future procurements. During discussions
               with Ohio Emergency Management Agency officials, the officials
               said they wanted to limit the review and recovery to future
               procurements because subgrantees were not fully aware of federal
               requirements and that disallowing the procurements would impose
               a significant financial hardship on some communities. However,

      The State of Ohio’s Management of State Homeland Security Program and
Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                      Page 17

                Ohio Emergency Management Agency officials said they will
                make every effort to review all grant funded purchases using FY
                2007, 2008, and 2009 State Homeland Security Program and
                Urban Areas Security Initiative grant funds exceeding $100,000.
                Non-compliant procurements will be held for further review and
                documentation. In addition, the State’s monitoring program is
                being amended to include procurement processes.

                Ohio Emergency Management Agency advised that neither the
                State Agency nor Ohio subgrantees fully understood federal
                procurement regulations particularly those pertaining to the use of
                the State Term Schedule. However, sole source procurements and
                the lack of cost analyses to assure fair and reasonable prices were
                identified as an audit finding previously in the OIG’s 2008 audit
                report. Because Ohio Emergency Management Agency has not
                initiated corrective actions from the previous DHS OIG report, the
                prospect of less oversight of such procurement as proposed by
                FEMA is not responsive to the current DHS OIG report
                recommendations. Accordingly, recommendation 9 remains
                unchanged with the exception of 9c; and FEMA should require
                Ohio Emergency Management Agency to review all of the large
                procurements made with 2007, 2008 and 2009 grant funds to
                assure the procurements are consistent with the fair and open
                competition standards of Code of Federal Regulations Title 44
                §13.36. We have, however, revised recommendation 9c to limit
                the amount to be refunded to FEMA as the amount that exceeds
                what is determined to be fair and reasonable for those
                procurements that were for $100,000 or more where there was a
                lack of competition.

                If properly implemented, the corrective actions proposed by
                FEMA and the State will resolve recommendations 7 and 8. These
                recommendations will remain open until such time that corrective
                actions have been fully implemented. However, as stated above,
                FEMA and Ohio Emergency Management Agency’s proposed
                corrective actions to recommendation 9 do not adequately address
                the recommendation. Accordingly, it will remain unresolved and
                open awaiting a written response that includes a corrective action
                plan and target completion date.

Noncompliance with Property Management Requirements
       State subgrantees did not always maintain property management records
       in accordance with federal requirements. Federal property management
       requirements were not being followed at the subgrantees visited. As a

       The State of Ohio’s Management of State Homeland Security Program and
 Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                       Page 18

      result, the State did not have reasonable assurance that the assets procured
      with federal funds were adequately safeguarded to prevent loss, damage,
      or theft of the property. Moreover, without sound property management
      controls in place, there is no assurance that the location, condition, and
      availability of essential equipment will be known when there is an
      emergency.

      Code of Federal Regulations Title 44 §13.32(d) Management
      requirements, establishes procedures for managing equipment (including
      replacement equipment), whether acquired in whole or in part with grant
      funds, and includes the following minimum requirements:

               Maintain property records that include a description of the
               property, a serial number or other identification number, the source
               of property, who holds title, the acquisition date, the cost of the
               property, percentage of Federal participation in the cost of the
               property, the location, use and condition of the property, and any
               ultimate disposition data including the date of disposal and sale
               price of the property.
               Maintain a physical inventory of the property and the results
               reconciled with the property records at least once every two years.
               Establish and maintain a control system to ensure adequate
               safeguards to prevent loss, damage, or theft of the property.
               Perform adequate maintenance procedures to keep the property in
               good condition.

      While FEMA guidance for the State Homeland Security Program requires
      grantees and subgrantees to follow federal requirements when managing
      and maintaining property records for equipment purchased with grant
      funds, the subgrantees visited were for the most part not following this
      guidance. At each location, we discussed property management
      procedures, reviewed local policies, and examined specific pieces of
      equipment selected from those purchased using FYs 2007, 2008, and 2009
      grant funds. We observed that:

               19 of 24 subgrantees did not have written policies and procedures,
               21 of 24 subgrantees did not have complete inventory records,
               24 of 24 subgrantees did not have equipment purchased with grant
               funds properly identified, and
               21 of 24 subgrantees were not making periodic inspections of
               equipment purchased with grant funds.

      Generally the subgrantees visited were not aware of the requirements of
      Code of Federal Regulations Title 44 §13.32. While 21 of the subgrantees
      had some type of property management system, our inspections disclosed

      The State of Ohio’s Management of State Homeland Security Program and
Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                      Page 19

      that these records were incomplete or not current. More than half of the
      subgrantees visited (15) did not use a numerical system and associated
      asset tags for tracking equipment specifically purchased with grant funds.
      Also, 24 subgrantees did not properly label equipment as purchased with
      Department of Homeland Security funds.

      Once equipment was distributed to first responder organizations, and
      property responsibility was assumed, the organizations generally did not
      report the status of the equipment to the subgrantee organization. We
      observed only three subgrantees that received status reports from first
      responder organizations throughout the audit period. Accordingly,
      equipment serviceability, operability, loss, or pilferage was not reported to
      the subgrantee. Finally, when equipment was taken out of service and
      disposed of, subgrantees were not notified.

      Despite these problems, our inspections of equipment at all subgrantees
      visited were accomplished with only a few exceptions, including at 13
      subgrantees locations, the subgrantees offered pieces of equipment for our
      review which were not the correct items. The subgrantees could not find
      pieces of equipment requested for inspection because sign out sheets and
      other distribution documentation were not current, not available, or
      identifiable by equipment type and project.

      Similar problems with inventory management were also identified in an
      audit report issued by the Department of Homeland Security, Office of
      Inspector General in 2008, including lack of internal controls over
      equipment management and overall compliance with Code of Federal
      Regulations Title 44 §13.32. In a response to that report, Ohio Emergency
      Management Agency officials concurred with the issues identified and in
      their written comments agreed to address the issues. However, as
      discussed above the subgrantees we visited were not complying with the
      required property management standards.

      Recommendations
               We recommend that the Assistant Administrator, Grant Programs
               Directorate, require the Ohio Emergency Management Agency to:

               Recommendation #10: Develop and disseminate guidance to all
               subgrantees establishing property management standards that fully
               comply with federal requirements.

               Recommendation #11: Develop policies and procedures
               requiring on-site monitoring of grant recipient compliance with
               property management standards.

      The State of Ohio’s Management of State Homeland Security Program and
Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                      Page 20

       Management Comments and Auditors’ Analysis
                FEMA concurred with recommendations 10 and 11 and agreed to
                request the Ohio Emergency Management to provide property
                management guidance to all subgrantees, including property
                management materials suitable to identify and track grant funded
                property, within 90 days of receipt of this report. FEMA also said
                that the Ohio Emergency Management will be requested to
                develop monitoring policy and procedures that includes periodic
                on-site visits to verify subgrantee control and accountability
                systems for grant-funded property.

                FEMA recommended that recommendation 10 and 11 be resolved
                and open pending implementation of the stated corrective actions.

                Ohio Emergency Management also concurred with
                recommendations 10 and 11. Ohio Emergency Management
                officials stated that a grant staff specialist is currently preparing a
                guidance and ‘best practice’ template to help subgrantees
                understand and apply property management standards. The Ohio
                Emergency Management monitoring program is being amended to
                include a more detailed review of inventory and property
                management.

                If properly implemented, the corrective actions proposed by
                FEMA and the State will resolve the condition identified during
                the audit. The recommendations are considered resolved and will
                remain open until such time that corrective actions have been
                implemented.

Inadequate Monitoring of Subgrantees
       The State Administrative Agency did not conduct monitoring visits to
       Urban Areas Security Initiative and State Homeland Security Program
       grant recipients for FYs 2007 through 2009 grant awards. Some oversight
       was accomplished through periodic telephone and e-mail contact with
       subgrantee staff as a part of the review of proposed budgets, processing of
       reimbursement requests, and at semi-annual meetings in the State capitol.
       This type of oversight is valuable but not sufficient to observe local
       administrative practices or to evaluate whether grant funds are being used
       effectively, efficiently, and in compliance with grant requirements and
       associated federal regulations. Also, these contacts do not disclose how
       well subgrantees were meeting preparedness goals and objectives. Our
       discussion with Ohio Emergency Management Agency staff revealed no

       The State of Ohio’s Management of State Homeland Security Program and
 Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                       Page 21

      firm plan or policy to provide for regular on-site monitoring visits. In
      order to assure that program goals are being achieved on-site monitoring
      of subgrantees on a regular basis is one of the best methods available to
      states.

      According to Code of Federal Regulations Title 44 §13.40, Monitoring
      and Reporting Performance, grantees are responsible for managing the
      day-to-day operations of grant and subgrant supported activities, and
      ensuring that grant recipients comply with applicable federal requirements
      and achieve program performance goals. This regulation also specifies
      that grantees’ monitoring programs must cover each program, function, or
      activity.

      Office of Management and Budget Circular A-133, Audits of States, Local
      Governments, and Non-profit Organizations, Part 3-M also specifies
      grantee monitoring requirements. Part 3-M states that grantees are
      responsible for monitoring subgrantee use of federal awards through
      reporting, site visits, regular contact, or other means. Grantee monitoring
      should provide reasonable assurance that the subgrantee administers
      federal awards in compliance with laws and regulations, as well as the
      provisions of contracts or grant agreements. Monitoring should assure
      that performance goals are achieved. Although on-site monitoring is not
      required, it does provide the grantee agency a better insight of how the
      subgrantee is performing and complying with program and financial grant
      requirements.

      Our review of FYs 2007 through 2009 Urban Areas Security Initiative and
      State Homeland Security Program grant awards disclosed that the State
      Administrative Agency did not conduct regular on-site monitoring visits to
      grant recipients. For the 24 subgrantees we visited, only two remembered
      Ohio Emergency Management Agency staff participating in an on-site
      monitoring visit. State Officials told us that there was no regular on-site
      monitoring during the entire 3-year term of the FYs 2007, 2008, and 2009
      Homeland Security Grant Program grants.

      In lieu of regular on-site monitoring visits to subgrantees, Ohio
      Emergency Management Agency obtained some oversight through its
      automated Electronic Grants Management System. Subgrantees used this
      system to submit their proposed budgets for purchasing equipment,
      exercises, and training. The subgrantees also used this system to submit
      supporting documents for reimbursement of expended grant funds such as
      invoices and delivery receipts. In addition, subgrantees had periodic
      contact with grant specialists concerning these administrative matters.




      The State of Ohio’s Management of State Homeland Security Program and
Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                      Page 22

      The Ohio Emergency Management Agency is responsible for the
      Homeland Security Grant Program and other grants which are allocated to
      subgrantees in 88 counties, 8 law enforcement regions, 4 Urban Areas
      Security Initiative, and several State agencies. According to Ohio
      Emergency Management Agency officials, during the last 3 years, Ohio
      Emergency Management Agency experienced significant staff turnover.
      For more than a year the Agency was not able to fill vacant positions.
      Even after new staff were employed, inexperience and the backlog of
      work prevented, and continues to inhibit, the State’s plans to conduct
      regular monitoring visits to subgrantees.

      In a previous audit of Ohio’s Homeland Security Grant Program
      examining FYs 2002 through 2004, the Office of Inspector General
      reported that Ohio Emergency Management Agency did not have an
      adequate monitoring program. The report recommended that Ohio take
      several steps to remedy this situation. Implementing a program of regular
      on-site monitoring was among these steps. At the time, the State
      Administrative Agency concurred with this recommendation and other
      monitoring-related recommendations. In its written comments to the
      report, the State said they had developed and implemented a
      comprehensive subgrantee monitoring program by July 2006 that included
      a goal to conduct on-site reviews annually of each subgrantee. However,
      an official said that the Ohio Emergency Management Agency had not
      implemented this on-site monitoring program.

      Without regular on-site monitoring of subgrantees, Ohio Emergency
      Management Agency officials were not fully aware of:

               Difficulties that delays and rework associated with late release of
               grant funds caused local officials,
               Problems caused by delays in reimbursing subgrantees for grant
               funded expenditures,
               Procurement practices that did not comply with federal regulations
               used to buy much of the equipment purchased with grant funds,
               Equipment property management practices that did not comply
               with federal regulations used by subgrantee and first responder
               organizations, and
               Subgrantee and first responder organizations progress in achieving
               program goals and objectives to improve preparedness.




      The State of Ohio’s Management of State Homeland Security Program and
Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                      Page 23

      Recommendation
               We recommend that the Assistant Administrator, Grant Programs
               Directorate, require the Ohio Emergency Management Agency to:

               Recommendation #12: Develop methods to better monitor
               subgrantees, including policies and procedures for on-site
               monitoring of grant recipients on a recurring basis that include
               evaluations of the recipients’ overall management of the grants and
               the achievement of program goals.

      Management Comments and Auditors’ Analysis
               FEMA concurred with recommendation 12 and, within 90 days,
               will request the Ohio Emergency Management Agency implement
               a monitoring program using best practices to include periodic on-
               site visits to oversee subgrantee activities. FEMA requested that
               recommendation 12 be resolved and open pending implementation
               of the stated corrective actions.

               The Ohio Emergency Management Agency acknowledged that on-
               site monitoring could be improved. The Ohio officials said that
               with full staff and a compliance specialist now in place, monitoring
               of subgrantee to meet the intent of recommendation 12 can be
               accomplished and improvements will be realized in this area.

               If properly implemented, the corrective actions proposed by
               FEMA and the State will resolve the condition identified during
               the audit. The recommendation is considered resolved and will
               remain open until such time that corrective actions have been
               implemented.




      The State of Ohio’s Management of State Homeland Security Program and
Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                      Page 24

Appendix A
Purpose, Scope, and Methodology

                       The objective of this audit was to determine whether the State of
                       Ohio distributed and spent State Homeland Security Program and
                       Urban Areas Security Initiative grant funds strategically,
                       effectively, and in compliance with laws, regulations, and
                       guidance. The goal of this audit is to identify problems and
                       solutions in order to assist FEMA and the State to improve the
                       nation’s ability to prevent and respond to all hazards on a local as
                       well as a statewide level.

                       The scope of this audit included the plans developed by the State to
                       improve preparedness and all hazards response, the goals set
                       within those plans, the measurement of progress towards the goals,
                       and the assessments of performance improvement that result from
                       this activity. Further, the scope included the assessment of these
                       activities within the context of risk to determine if the State’s plans
                       produced strategic performance improvements related to the
                       highest areas of risk rather than merely producing improvements in
                       a broader sense.

                       Together, the entire Homeland Security Grant Program and its five
                       interrelated grant programs fund a range of preparedness activities,
                       including planning, organization, equipment purchase, training,
                       exercises, and management and administration costs. Because of
                       the interrelationship of these grant programs, all were considered
                       when evaluating the planning cycle and the effectiveness of the
                       overall grant program. However, only State Homeland Security
                       Program and Urban Areas Security Initiative funding, and
                       equipment and programs supported by the grant funding, were
                       reviewed for compliance.

                       The Homeland Security Grant Program awards to Ohio for fiscal
                       years 2007 through 2009 included the following programs and
                       awards:




              The State of Ohio’s Management of State Homeland Security Program and
        Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                              Page 25

Appendix A
Purpose, Scope, and Methodology

                                           Homeland Security Grant Program
                                               FYs 2007 through 2009
                      Funded Activity        FY 2007        FY 2008         FY 2009             Total
                   State Homeland
                   Security Program         $16,830,000    $24,520,000    $23,127,500      $64,477,500
                   Urban Areas Security
                   Initiative               $15,480,000    $16,280,500    $16,590,750      $48,351,250

                           Total            $32,310,000    $40,800,500    $39,718,250     $112,828,750
                   Law Enforcement
                                                             Not             Not
                   Terrorism Prevention     $12,020,000                                    $12,020,000
                                                           Applicable      Applicable
                   Program
                   Citizen Corps
                   Program                     $441,938       $439,689        $436,943      $1,318,570
                   Metropolitan
                   Medical Response          $1,548,871     $1,927,326      $1,927,326      $5,403,523
                   System Program
                        Grand Total         $46,320,809    $43,167,515    $42,082,519     $131,570,843
                      Source: Federal Emergency Management Agency

                       In accordance with the audit guide, provided by the OIG, the team
                       selected all four Urban Areas Security Initiative cities, all eight
                       Ohio Regional Law Enforcement organizations, 12 of 88 county
                       subgrantees, and four State agencies to perform an in-depth review
                       of the key grant management processes. We selected these
                       locations based on their high dollar grant award amount as well as
                       geographic and demographic factors assuring that urban, suburban,
                       rural, and counties with critical infrastructure were included in our
                       sample. In addition, we sought input from the State Administrative
                       Agency for input on known problems at any particular subgrantee.

                       Specifically, we visited the following 4 State agencies and 24 local
                       subgrantees:

                           State Agencies
                                  State Administrative Agency, Ohio Emergency
                                  Management Agency
                                  Department of Administrative Services, Office of
                                  Information Technology
                                  Department of Transportation
                                  Ohio Office of Homeland Security




              The State of Ohio’s Management of State Homeland Security Program and
        Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                              Page 26

Appendix A
Purpose, Scope, and Methodology

                           Urban Areas Security Initiative
                                 Cincinnati Urban Areas Security Initiative
                                 Cleveland Urban Areas Security Initiative
                                 Columbus Urban Areas Security Initiative
                                 Toledo Urban Areas Security Initiative

                           Law Enforcement Regions
                                 Ohio Law Enforcement Region 1
                                 Ohio Law Enforcement Region 2
                                 Ohio Law Enforcement Region 3
                                 Ohio Law Enforcement Region 4
                                 Ohio Law Enforcement Region 5
                                 Ohio Law Enforcement Region 6
                                 Ohio Law Enforcement Region 7
                                 Ohio Law Enforcement Region 8

                           Ohio Counties
                                 Butler County

                                 Cuyahoga County 

                                 Franklin County

                                 Hamilton County

                                 Jackson County

                                 Lake County

                                 Licking County

                                 Lucas County

                                 Montgomery County 

                                 Summit County

                                 Stark County

                                 Wood County


                           The 28 grant recipients visited received:
                                  41% of the 2007 State Homeland Security Program grant
                                  64% of the 2008 State Homeland Security Program grant
                                  61% of the 2009 State Homeland Security Program grant
                                  100% of the 2007, 2008, and 2009 Urban Areas Security
                                  Initiatives grants




              The State of Ohio’s Management of State Homeland Security Program and
        Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                              Page 27

Appendix A
Purpose, Scope, and Methodology

                       To determine the effectiveness of Ohio’s grant program as well as
                       compliance with requirements, at each location we interviewed
                       responsible officials, and reviewed documentation supporting State
                       and subgrantee management of the awarded grant funds (including
                       expenditures for equipment, training, and exercises). We tested
                       property and payment transactions, physically inspected some of
                       the equipment procured with the grant funds and analyzed the
                       procurement process. In addition, we met with representatives of
                       first responder organizations, such as fire, police, sheriff, and
                       health organizations, to discuss the grant process and the benefits
                       the grant funds have brought to their organization and
                       communities.

                       We conducted reviews at FEMA headquarters, State of Ohio
                       offices, each of the Urban Areas Security Initiative offices,
                       regional law enforcement organizations, and county subgrantee
                       organizations. At these locations, the audit team conducted
                       interviews with key officials directly involved in the management
                       and administration of the State of Ohio Homeland Security Grant
                       Program. The team reviewed and analyzed data related to grant
                       management and associated processes identified by the team and
                       discussed with Ohio State Officials at the beginning of the audit.
                       These key management processes included:

                                 Threat, capability, and needs assessment
                                 Grant application preparation and submission
                                 Grant funds allocation
                                 Grant expenditure and reporting 

                                 Grant monitoring 


                       We conducted the audit between November 2010 and May 2011,
                       in accordance with Government Auditing Standards as prescribed
                       by the Comptroller General of the United States (2007 Revision).
                       Those standards require that we plan and perform the audit to
                       obtain sufficient, appropriate evidence to provide a reasonable
                       basis for our findings and conclusions based on our audit
                       objectives. We believe that the evidence obtained provides a
                       reasonable basis for our findings and conclusions based on our
                       audit objectives.

                       Although this audit included a review of costs claimed, we did not
                       perform a financial audit of those costs. This was a performance
                       audit as defined by Chapter 1 of the Standards, and included a
                       review and report of program activities with a compliance element.


              The State of Ohio’s Management of State Homeland Security Program and
        Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                              Page 28

Appendix A
Purpose, Scope, and Methodology

                       Foxx & Company was not engaged to and did not perform a
                       financial statement audit, the objective of which would be to
                       express an opinion on specified elements, accounts, or items.
                       Accordingly, Foxx & Company was neither required to review, nor
                       express an opinion on, the costs claimed for the grant programs
                       included in the scope of the audit. Had Foxx & Company been
                       required to perform additional procedures, or conducted an audit of
                       the financial statements in accordance with generally accepted
                       auditing standards, other matters might have come to its attention
                       that would have been reported. This report relates only to the
                       programs specified and does not extend to any financial statements
                       of the State of Ohio.

                       While the audit was being performed and the report prepared under
                       contract, the audit results are being reported by the DHS OIG to
                       appropriate FEMA and State of Ohio officials.




              The State of Ohio’s Management of State Homeland Security Program and
        Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                              Page 29

Appendix B
Management Comments to the Draft Report



                                                                                U.S. [)ep3rlment or Ilomelamj S{'eurit~·
                                                                                Washington. DC 20472




                                                      OCT 1 3 2011


        MEMORANDUM FOR:              Anne L. Richards
                                     Assistant Inspector General for Audits
                                     Office of Inspector General
                                      It«d-- &>1. ~,.             IVr
        FROM:                         David J. Kaufman        /
                                      Director
                                      Office of Policy and Program Analysis

        SUBJECT:                      Federal Emergency Management Agency's (FEMA's) Response to
                                      Drall OIG Rcport, Tlte State olOllio's Mallagemellt oiState
                                      /-loll/eland Security Program (SHSP) and Urban Areas Security
                                      Illitiatives (UASI) GranlS AlI'arded during Fiscal Years 2007 {ltrougll
                                      2009


        Thank you for the opportunity to comment on your draft report. The findings in the report will be
        used to strengthen the effectiveness and efficiency of how we execute and measure our programs.
        We recognize the need to continue to improve the process, induding addressing the
        recommcndations raised in this report. Our responses to the recommcndations are as follows:

        QIG Recommendation #1: We recommend that the Assistant Administrator, Grant Programs
        Directorate (GPD), require the Ohio Emergency Managcment Agency (OEM A) to review the
        subgrantee application and approval process to identify ways to make it more efficient and less time
        consuming.

        FEMA Response: FEMA concurs with this recommendation.

        FEMA will request the OEMA infonn FEMA, within 90 days of receipt of this response via the
        !,rrantee notification memo, as to whether or not such an assessment of the current policies and
        procedures involved with the execution of subgrantee awards has occurred and ifany modifications
        will be made to expedite expenditures. If the assessment has not yet occurred, FEMA will require
        OEM A to complete the assessment within 90 days ofreccipt of this rcsponse.

        FEMA requests that this recommendation be resolved and opcn pending implementation of the
        stated corrective actions.



                                                                               w",w.remn,gov




             The State of Ohio’s Management of State Homeland Security Program and
       Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                                    Page 30

Appendix B
Management Comments to the Draft Report




        OIG Recommendation #2: We recommend that the Assistant Administrator, Grant Programs
        Directorate, require the Ohio Emergency Management Agency to provide detailed guidance to the
        subgrantees concerning the process upon implementation.

        FEMA Response: FEMA concurs with this recommendation.

        FEMA will request OEMA provide a detailed process to develop and deliver guidance and
        additional training as required to the subgrantees concerning the revised subgrantee application and
        approval process, within 90 days of receipt of this response via the grantee notification memo.

        FEMA requests that this recommendation be resolved and open, pending implementation of the
        stated corrective actions.

        OIG Recommendation #3: We recommend that the Assistant Administrator, Grant Programs
        Directorate, require the Ohio Emergency Management Agency to establish a clear time standard for
        processing payment requests consistent with reasonable business practice.

        FEMA Response: FEMA concurs with this recommendation.

        FEMA will request OEMA establish a standard for processing payment requests consistent with
        reasonable business practice, within 90 days of receipt of this response via the grantee notification
        memo.

        FEMA requests that this recommendation be resolved and open pending implementation of the
        stated corrective actions.

        OIG Recommendation #4: We recommend that the Assistant Administrator, Grant Programs
        Directorate, require the Ohio Emergency Management Agency to conduct a comprehensive analysis
        of the payment procedures, documentation requirements, and automated systems to identify ways to
        streamline the process while still maintaining accountability for compliance with grant requirements.

        FEMA Response: FEMA concurs with this recommendation.

        FEMA will request OEMA analyze the payment procedures, documentation requirements and
        automated grant systems, and subsequently identify ways to streamline these processes while
        maintaining grant compliance, within 90 days of receipt of this response via the grantee notification
        memo.

        FEMA requests that this recommendation be resolved and open pending implementation of the
        stated corrective actions.

        OIG Recommendation #5: We recommend that the Assistant Administrator, Grant Programs
        Directorate, require the Ohio Emergency Management Agency to establish and provide training on
        the revised process for State grant specialists and subgrantee staff.



                                                                                                                2




             The State of Ohio’s Management of State Homeland Security Program and
       Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                                     Page 31

Appendix B
Management Comments to the Draft Report




        FEMA Response: FEMA concurs with this recommendation.

        FEMA will request OEMA develop a process to provide State staff and subgrantees sufficient
        training on streamlined payment procedures, documentation requirements and automated grant
        systems, within 90 days of receipt of this response via the grantee notification memo.

        FEMA requests that this recommendation be resolved and open pending implementation of the
        stated corrective actions.

        OIG Recommendation #6: We recommend that the Assistant Administrator, Grant Programs
        Directorate, require the Ohio Emergency Management Agency to consider instituting an Electronic
        Grant Management System users group to identify and resolve future process problems.

        FEMA Response: FEMA concurs with this recommendation.

        FEMA will request OEMA report on the development of an Electronic Grant Management System
        users group, which will be able to review, identify, and resolve process problems, within 90 days of
        receipt of this response via the grantee notification memo.

        FEMA requests that this recommendation be resolved and open pending implementation of the
        stated corrective actions.

        OIG Recommendation #7: We recommend that the Assistant Administrator, Grant Programs
        Directorate, require the Ohio Emergency Management Agency to develop and provide to all Ohio
        Emergency Management Agency grant staff and subgrantee grant managers, training on State and
        federal regulations pertaining to competitive procurement.

        FEMA Response: FEMA concurs with this recommendation.

        FEMA will request OEMA indicate that procedures are outlined in the Administrative Plan for
        Homeland Security Grants to ensure State staff and subgrantees follow Federal requirements for
        competitive procurement within 90 days of receipt of this response via the grantee notification
        memo.

        FEMA requests that this recommendation be resolved and open pending implementation of the
        stated corrective actions.

        OIG Recommendation #8: We recommend that the Assistant Administrator, Grant Programs
        Directorate, require the Ohio Emergency Management Agency to prepare, publish, and disseminate
        guidance detailing procurement regulations and procedures for acquiring equipment and services
        using FEMA grant funds to all Ohio municipal and county purchasing departments that assist
        subgrantees in acquiring equipment or services with Homeland Security grant funds.

        FEMA Response: FEMA concurs with this recommendation.




                                                                                                               3




             The State of Ohio’s Management of State Homeland Security Program and
       Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                                    Page 32

Appendix B
Management Comments to the Draft Report




        FEMA will request OEMA issue guidance to all subgrantees detailing procurement regulations and
        procedures for acquiring equipment and services using FEMA grant funds within 90 days of receipt
        of this response via the grantee notification memo.

        FEMA requests that this recommendation be resolved and open pending implementation of the
        stated corrective actions.

        OIG Recommendation #9: We recommend that the Assistant Administrator, Grant Programs
        Directorate, require the Ohio Emergency Management Agency to complete a review of all grant
        funded purchases using FYs 2007, 2008, and 2009 State Homeland Security Program and Urban
        Areas Security Initiative grant funds exceeding $100,000 to: (a) Identify those made.as sole source
        procurements and verify that sole source procurement was justified, (b) Document that the price
        obtained was fair and reasonable, and (c) Disallow all procurements that fail to meet these
        requirements.

        FEMA Response: FEMA concurs with the intent of this recommendation. Appendix F of the FY
        2008 HSGP Guidance states: "Prior to the transition to FEMA, the former Office of Grants and
        Training preparedness programs followed The Department of Justice's codified regulations, 28 CFR
        and the OGO Financial Management Guide. The former Office of Grants and Training is now within
        FEMA and all preparedness programs will follow FEMA's codified regulations, 44 CFR." Based on
        this language, only those purchases exceeding $100,000 with FY 2007 HSGP funds will be required
        to be reviewed. The requirement for FEMA review of sole source procurements did not apply to FY
        2008 and 2009 procurements, so those procurements will not be required to be reviewed.

        Within 90 days of receipt of this response via the grantee notification memo, FEMA will request
        OEMA review all grant funded purchases using FY 2007 State Homeland Security Program and
        Urbl!ll Areas Security Initiative grant funds exceeding $100,000 to verify that sole source
        procurement was justified, the price obtained was fair and reasonable, and determine if any
        expenditures failed to meet these requirements.

        FEMA requests that this recommendation be resolved and open pending implementation of the
        stated corrective actions.

        OIG Recommendation #10: We recommend that the Assistant Administrator, Grant Programs
        Directorate, require the Ohio Emergency Management Agency to develop and disseminate guidance
        to all subgrantees establishing property management standards that fully comply with federal
        requirements.

        FEMA Response: FEMA concurs with this recommendation.

        Within 90 days of receipt of this response via the grantee notification memo, FEMA will request
        OEMA provide property management guidance to all subgrantees, to include: property tracking
        sheets which provide property, vendor number, grant number, and current location details to its
        subgrantees. The tracking sheets will be implemented immediately.




                                                                                                              4




             The State of Ohio’s Management of State Homeland Security Program and
       Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                                   Page 33

Appendix B
Management Comments to the Draft Report




        FEMA requests that this recommendation be resolved and open pending implementation of the
        stated corrective actions.

        OIG Recommendation #11: We recommend that the Assistant Administrator, Grant Programs
        Directorate, require the Ohio Emergency Management Agency to develop policies and procedures
        requiring on-site monitoring of grant recipient compliance with property management standards.

        FEMA Response: FEMA concurs with this recommendation.

        Within 90 days of receipt of this response via the grantee notification memo, FEMA will request
        OEMA develop a policy and procedure to verify the adequacy of subgrantee control and
        accountability systems of grant funded property through on-site monitoring.

        FEMA requests that this recommendation be resolved and open pending implementation of the
        stated corrective actions.

        OIG Recommendation #12: We recommend that the Assistant Administrator, Grant Programs
        Directorate, require the Ohio Emergency Management Agency to develop methods to better monitor
        subgrantees, including policies and procedures for on-site monitoring of grant recipients on a
        recurring basis that include evaluations of the recipients' overall management of the grants and the
        achievement of program goals.

        FEMA Response: FEMA concurs with this recommendation.

        Within 90 days of receipt of this response, via the grantee notification memo, FEMA will request
        OEMA implement a monitoring program using best practices that includes periodic on-site visits to
        oversee the activities of subgrantees. OEMA will use these on-site visits to evaluate subgrantees'
        overall grants management activities.

        FEMA requests that this recommendation be resolved and open pending implementation of the
        stated corrective actions.

        We thank you, again, for the opportunity to review and update our comments to your
        recommendations contained in your final report. Should you have further questions regarding our
        response, please do not hesitate to call FEMA's Chief Audit Liaison, Brad Shefka, at 202-646-1308.




                                                                                                             5




             The State of Ohio’s Management of State Homeland Security Program and
       Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                                    Page 34

Appendix B
Management Comments to the Draft Report




        -lYJ~ OHIO DEPARTMENT                                                                                                         John R. Kasich, Governor
         ~~~ ~~A~o~~;L~£~p~O~E:Jo~                   ---,A;-cdC":m.,.,in.,.,istC":ra"'lioc:-n,----------------T..h"'o~m"'a::..s~p'-'.c";.i~2~an::r~"':s"'J-"iDD~i~=':~=~o:::n~'
                                                           Bureau of Motor Vehicles                         ~;.                                     Executive Director
                                                           Emergency Management Agency
                                                           Emergency Medical Services                                            Emergency Management Agency
                                                           Office of Criminal Justice Services                                   2855 West Dublin·Granville Road
                                                           Ohio Homeland Security                                                    Columbus, Ohio 43235-2206
                                                           Ohio Investigative Unit                                                               (614) 889·7150
                                                           Ohio State Highway Patrol                                                         www.ema.ohio.gov

                                                                                                                                              October 3, 2011

        Foxx & Company
        Attention: Bill Moore
        700 Goodall Complex
        324 West Ninth Street
        Cincinnati, Ohio 45202

        Dear Mr. Moore:

       The Ohio Emergency Management Agency (OEMA) would like to thank you and your team for
       providing us feedback from your recent Office ofInspector General Audit of the Homeland
       Security Grant Program. We would like to take this opportunity to provide comments towards the
       audit and recommendations noted in the draft version of the letter discussed at our September 19,
       2011 exit conference.

       General comments:
       The audit took into account grants that were open and active through a period of significant change
       in Ohio EMA's administrative processes and stmcture. Included in the these changes was the
       implementation of the Electronic Grants Management System (EGMS) and significant personnel
       changes to include replacement of the entire management team and a tum-over of75 percent of
       grants management staff in the Preparedness Grants Branch. While we acknowledge that the
       implementation and timing of these changes contributed to the process delays captured in the scope
       of the audit, we feel that the net outcome of these changes has been an improvement to customer
       service and process timeliness that is evident in our day to day operations and will be reflected in
       future reviews of grant programs.

       Item 1: Untimely Release of Grant Funds to Sub-grantees

              Recommendation #1: Review the sub-grantee application and approval process to identify
              ways to make it more efficient and less time consuming.
              Comment: We concur. Preparedness Grants Branch staff regularly review the time frames
              and take appropriate actions to streamline processes. We will continue to take these actions.

              RecDmmendation #2: Provide detailed guidance to the sub-grantees concerning the
              process upon implementation.
              Comment: We concur. Guidance and Grant Agreements for program years beyond the
              scope of the audit already include more detailed instruction on the necessary steps to
              complete the application and access funds. Ohio EMA will review and update this guidance
              as necessary to ensure a clear picture is presented to sub-grantees on actions required and
              assistance that is available. While Ohio EMA will continue to take these actions, it IllUSt
                                                                   Mission Statement
                 "(0 save lives, reduce injuries and economic loss, to administer Ohio's motor vehicle laws and to preserve tile safety
                           and well being of all citizens with Il1e most cost-effective and service-oriented methods available"




             The State of Ohio’s Management of State Homeland Security Program and
       Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                                                          Page 35

Appendix B
Management Comments to the Draft Report




        Ohio Department of   Public Safety
        Page 2

              also be noted that a sub-grantee has responsibilities in the award/release process that must
              be done accurately and timely to ensure that funds are available in the most expeditious
              manner. Ohio EMA will work with these sub-grantees to get them to a reasonable time-
              frame realized by many other sub-grantees of these programs.

        Item 2: Untimely Payment to Sub-grantees for Grant Expenditures

              Recommendation #3: Establish a clear time standard for processing payment requests
              consistent with reasonable business practice.
              Comment: Ohio EMA strives to process all reimbursements in a manner that would allow
              for timely payment of contracts, invoices and other obligations. While not fonnalized in
              any procedures, Preparedness Grants Branch management has implemented an expectation
              of cash requests processed within five business days of receipt in the system. Based on this
              expectation, the process then allows for approximately two weeks to draw federal funds,
              voucher payments and transfer funds to sub-grantees - allowing approximately one week
              for sub-grantees to execute payment within 30 days. Noting that this is a reasonable
              timeframe, there are variables beyond Ohio EMA's control in the process that may delay the
              overall payment time. Such items include: cash requests that have been submitted without
              proper documentation; cash requests submitted for items not contained in an approved
              budget; state accounting processes (outside of Department of Public Safety, Ohio EMA) that
              may delay the deposit of funds from federal accounts to Ohio EMA. We concur with using a
              "standard" that is consistent with reasonable business practices as a benchmark in
              improving the timeliness of our payment processing; however, we do not plan to sacrifice
              internal controls already in place in order to achieve this "standard." Ohio EMA will review
              the current process and look for efficiencies that can be achieved, realizing there will
              continue to be circumstances outside of Ohio EMA's control that will limit the ability to
              consistently meet the "standard" established.

              Recommendation #4: Conduct a comprehensive analysis ofthe payment procedures,
              documentation requirements, and automated systems to identify ways to streamline the
              process while still maintaining accountability for compliance with grant requirements
              Comment: We concur; Preparedness Grants Branch staff regularly review the time frames
              and take appropriate actions to streamline processes. We will continue to take these actions.

              Recommendation #5: Establish and provide training on the revised process for State grant
              specialists and sub-grantee staff.
              Comment: Ohio EMA continues to offer refresher training to sub-grantees on the EGMS
              system. Additionally, Ohio EMA staff has increased their awareness and training on grants
              management and administration. We will continue these efforts to enhance our staffs
              expanding knowledge base.

              Recommendation #6: Consider instituting an Electronic Grant Management System users
              group to identify and resolve future process problems.
              Comment: We concur. Ohio EMA noted during tbe SAA interview portion of the audit
              that it was working on establishment of an EGMS working group. Since the audit has been
              conducted, the vendor that provides EGMS has offered a new product to replace the existing




             The State of Ohio’s Management of State Homeland Security Program and
       Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                                     Page 36

Appendix B
Management Comments to the Draft Report




        Ohio Department of Public Safety
        Page 3

               system. As part of the decision making process, Ohio EMA will be reaching out to several
               stakeholders at the sub-grantee level to review, critique and make recommendations on the
               new system.

        Item 3: Noncompliance with Procurement Regulations
        As mentioned in the audit exit conference, we're requesting that page 11 of the audit report be
        updated to include the provision outline in 44 CFR Part 13.36 (d) (4) (i) (D) "After solicitation ofa
        number of sources, competition is detennined to be inadequate." Additionally, Ohio EMA is
        requesting that the document (page 11) be revised to reflect the applicability of the Department of
        Homeland Security (DHS), Financial Management Guide to only the fiscal year 2007 Homeland
        Security Grant Program. With the Financial Management Guide reference conected, we further
        request that references to "seeking permission" be removed from the report unless relevant to the
        Fy2007 grant.

        Ohio EMA is requesting that the paragraph on page 12 that details the state's procurement ofEOC
        software be amended or removed. We reference 44 CFR Part 13.36 (a) States.
                "When procuring propelty and services under a grant, a State will follow the same policies
                and procedures it uses for procurements from its no-Federal funds. The State will ensure
                that every purchase order or other contract includes any clauses required by Federal statutes
                and executive orders and their implementing regulations."
        Ohio followed the same procurement procedure that is required for non-federal funds to procure the
        EOC software - thus meeting the requirement of 44 CFR. As such, reference to the purchase under
        the category of non-compliance with procurement regulations is inconect.

               Recommendation # 7: Develop and provide to all Ohio Emergency Agency grant staff and
               sub-grantee grant managers, training on State and federal regulations pertaining to
               competitive procurement.
               Comment: We concur. After the conclusion of the audit, Ohio EMA made available to the
               Preparedness Grants Branch an individual to fulfill the role of a compliance specialist. The
               background of this individual is procurement (grant and non-grant). As such, processes,
               procedures and documents are being reviewed and revised to fully reflect the federal
               requirements for procurement. An objective of this position's work plan includes a
               technical support document that can be offered to sub-grantees to facilitate meeting grant
               requirements while not slowing the procurement process. Through this process, Ohio EMA
               feels confident that staff will receive the necessary training and that it will be made
               available to all sub-grantees.

               Recommendation #8: Prepare, publish, and disseminate guidance detailing procurement
               regulations and procedures for acquiring equipment and services using FEMA grant funds
               to all Ohio municipal and county purchasing departments that assist subgrantees in
               acquiring equipment or services with Homeland Security grant funds.
               Comment: We concur. As mentioned in regards to recommendation number seven, Ohio
               EMA has installed a compliance specialist in the preparedness grants branch. An objective
               of this position's work plan includes a technical support document that can be offered to
               sub-grantees (at all levels) to facilitate meeting grant requirements.




             The State of Ohio’s Management of State Homeland Security Program and
       Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                                      Page 37

Appendix B
Management Comments to the Draft Report




        Ohio Department of Public Safety
        Page 4

               Recommendation #9: Complete a review of all grant funded purchases usi.ng FYs 2007,
               2008, and 2009 State Homeland Security Program and Urban Areas Security Initiative grant
               funds exceeding $100,000 to: (a) Identify those made as sole source procurements and
               verify that sole source procurement was justified, (b) Document that the price obtained was
               fair and reasonable, and (c) Disallow all procurements that fail to meet these requirements.
               Comment: Ohio EMA will make efforts to review all future procurements in the FY2008
               and FY2009 grant programs as they are still open and active. Any procurement beyond the
               simplified acquisition threshold that does not comply with 44 CFR will be held for further
               review and documentation. Additionally, the Preparedness Grants branch is amending the
               monitoring program to include procurement processes to better ascertain trends in
               procurement en·ors.

        Item 4: Noncompliance with Property Management Requirements
               Recommendation #10: Develop and disseminate guidance to all sub-grantees establishing
               property management standards that fully comply with federal requirements.
               Comment: We concur. The compliance specialist is currently working on a guidance and
               "best practice" template for sub-grantee use. Upon completion, Ohio EMA Preparedness
               Grants Branch will make the documents available to sub-grantees along with technical
               assistance as needed.

              Recommendation # 11: Develop policies and procedures requiring on-site monitoring of
              grant recipient compliance with property management standards.
              Comment: We concur. The compliance specialist is amending the monitoring program to
              include more detailed review of inventory/property management. Monitoring visits that
              occurred since implementing the compliance specialist have been provided with more
              detailed feedback and corrective actions on property management. We will continue to take
              these actions in our monitoring program.

       Item 5: Inadequate Monitoring of Sub-grantees
              Recommendation #12: Develop methods to better monitor sub-grantees, including policies
              and procedures for on-site monitoring of grant recipients on a recurring basis that include
              evaluations of the recipients' overall management ofthe grants and the achievement of
              program goals.
              Comment: Ohio EMA acknowledges that the monitoring program in regards to on-site
              monitoring can be improved. However, starting in September, 2006 Ohio instituted a desk
              review process that is utilized in grant administration activities of the Homeland Security
              Grant Program. The desk review process has been implemented for the budget approval and
              cash request processing. Any deficiency in the on-site monitoring can be directly attributed
              to staffing shortages and turn-over. The process and tools for monitoring have been in place
              and need only minor adjustment to captw'e tile recommendations of this report. With full
              staffing in place and the addition ofa compliance specialist with a focus on the monitoring
              program, Ohio EMA is confident iliat improvements will be realized in this area of
              improvement.




             The State of Ohio’s Management of State Homeland Security Program and
       Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                                     Page 38

Appendix B
Management Comments to the Draft Report




        Ohio Department of Public Safety
        Page 5



        Again, we would like to thank you for providing us feedback on our grant management and
        administration and the opportunity to comment. If you have any questions or concerns, please feel
        free to contact Andrew D. Elder, Preparedness Grants Branch Chief at adelder@dps.state.oh.us or
        by phone at (614) 889-7178.


                                                    Sincerely,



                                              \-;{--yj ~p
                                                    Nancy Dragani
                                                    Executive Director




        CC: Aimee Clancy, FEMA GPD
            File




             The State of Ohio’s Management of State Homeland Security Program and
       Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                                     Page 39

Appendix C
Homeland Security Grant Program Background


                      The Homeland Security Grant Program provides federal funding to
                      help state and local agencies enhance their capabilities to prevent,
                      protect against, respond to, and recover from terrorist attacks,
                      major disasters, and other emergencies. The Homeland Security
                      Grant Program encompasses several interrelated federal grant
                      programs that together fund a range of preparedness activities,
                      including planning, organization, equipment purchase, training,
                      and exercises, as well as management and administration costs.
                      Programs include:

                          State Homeland Security Program provides financial
                          assistance directly to each of the states and territories to
                          prevent, respond to, and recover from acts of terrorism and
                          other catastrophic events. The program supports the
                          implementation of the State Homeland Security Strategy to
                          address the identified planning, equipment, training, and
                          exercise needs.

                          Urban Areas Security Initiative provides financial assistance
                          to address the unique planning, equipment, training, and
                          exercise needs of high risk urban areas, and to assist in building
                          an enhanced and sustainable capacity to prevent, respond to,
                          and recover from threats or acts of terrorism and other
                          disasters. Allowable costs for the urban areas are consistent
                          with the State Homeland Security Program. Funding is
                          expended based on the Urban Area Homeland Security
                          Strategies.

                      In addition, the Homeland Security Grant Program includes other
                      interrelated grant programs with similar purposes. Depending on
                      the fiscal year these include:

                               Metropolitan Medical Response System
                               Citizen Corps Program
                               Law Enforcement Terrorism Prevention Program
                               (through FY 2007)




             The State of Ohio’s Management of State Homeland Security Program and
       Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                             Page 40

Appendix D
Ohio Emergency Management Agency Organization Chart


                            Organization as of November 2010




                    Source: Ohio Emergency Management Agency




             The State of Ohio’s Management of State Homeland Security Program and
       Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                             Page 41

Appendix E
Report Distribution


                       Department of Homeland Security

                       Secretary
                       Deputy Secretary
                       Chief of Staff
                       Deputy Chief of Staff
                       General Counsel
                       Executive Secretariat
                       Director, GAO/OIG Liaison Office
                       Assistant Secretary for Office of Policy
                       Assistant Secretary for Office of Public Affairs
                       Assistant Secretary for Office of Legislative Affairs

                       Federal Emergency Management Agency

                       Administrator
                       Assistant Administrator, Grant Programs Directorate
                       Federal Emergency Management Agency Audit Liaison
                       Grant Programs Directorate Audit Liaison

                       Office of Management and Budget

                       Chief, Homeland Security Branch
                       DHS OIG Budget Examiner

                       Congress

                       Congressional Oversight and Appropriations Committees, as
                       appropriate




              The State of Ohio’s Management of State Homeland Security Program and
        Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                              Page 42

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
